\

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Sammy Cano

— PETITIONER

(Your Name)
VS.
The People of the State df Illinois RESPONDENT(S)

PROOF OF SERVICE
I, Sammy Cano
June 16th

_______________ do swear or declare that on this date,
20_2L, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney General Kwame Raoul 100 W.Randolph st,12th floor, Chicago IL.60601
Cook County State Attorney Kim Foxx 300 Dalev Center Chir.ag;oJTT. 60609

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

June—16th

2021_

(Signature)

i? / \A

